         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report



       Congressionally Requested Report
       on EPA Staffing Levels and
       Total Costs for EPA Facilities

       Report No. 09-P-0080

       January 14, 2009
Report Contributors:                      Patrick Gilbride
                                          Gail Saunders




Cover photos: 	 EPA facilities, clockwise from top left: The Research Triangle Park complex,
                Research Triangle Park, North Carolina; the EPA Region 8 office, Denver,
                Colorado; the EPA Kansas City Science and Technology Center, Kansas City,
                Missouri; and EPA Potomac Yards, Arlington, Virginia (EPA photos).
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL



                                        January 14, 2009

The Honorable Norman Dicks
Chairman
Subcommittee on Interior, Environment
  and Related Agencies
Committee on Appropriations
U.S. House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

        On July 14, 2008, we met with your staff to discuss the Office of Inspector General's Key
Management Challenges for Fiscal Year 2008. During this meeting, your staff requested that we
provide additional information on the staffing levels, rental/lease fees, and utility and security
costs for all of the U.S. Environmental Protection Agency’s (EPA's) facilities and/or locations
where EPA incurs costs associated with its employees. For those offices that house five or fewer
employees, we were also asked to provide the purpose of the facility.

        Enclosed is the information we obtained from EPA. Enclosure 1 includes the staffing
levels and costs associated for all EPA facilities. Enclosure 2 includes information pertaining to
the costs and purpose of facilities that house five or fewer EPA employees. We have not
independently validated the accuracy of the data provided.

         We appreciate your interest in our work. Should you or your staff have any questions on
this or any other matter, please contact Eileen McMahon, Assistant Inspector General for
Congressional, Public Affairs and Management, at (202) 566-2391.

                                             Sincerely,




                                             Bill A. Roderick
                                             Deputy Inspector General

Enclosures
                                                                                                                                        09-P-0080


                                                                                                                                     Enclosure 1

                                             Total Costs for EPA Facilities

                                                         EPA-Owned
                                                          Facility?       Rent/Lease Costs    Security Costs    Utility Costs
                                                                               (Year)(a)                (b)              (b)
                    Location                 Employees      (Y/N)                                (Year)           (Year)                 Total
REGION 1
Massachusetts-Boston                            658          N                  $10,680,745        $1,643,729                   $0      $12,324,474
Massachusetts-North Chelmsford                  64           N                   $2,567,087          $39,302          $475,995           $3,082,384
Rhode Island-Narragansett                       69           Y                          $0          $625,392          $586,321           $1,211,713
                                 Subtotals      791                             $13,247,832        $2,308,423       $1,062,316          $16,618,571
REGION 2
Connecticut-Stamford                            2            N                     $15,533                $0                    $0         $15,533
New Jersey-Edison                               195          Y                          $0          $620,156        $1,022,664           $1,642,820
New York-Buffalo                                 2           N                     $31,692                $0                    $0         $31,692
New York-Hudson Falls                            2           N                          $0                $0                    $0               $0
New York-New York                               683          N                  $17,573,172        $1,972,068                   $0      $19,545,240
Puerto Rico-San Juan                            10           N                     $18,316              $441                    $0         $18,757
Puerto Rico-Santurce                            41           N                    $606,703            $9,403                    $0        $616,106
Virgin Islands-St. Thomas1                       2           N                    $118,140              $905                    $0        $119,045
                                 Subtotals      937                             $18,363,556        $2,602,973       $1,022,664          $21,989,193
REGION 3
Maryland-Annapolis                              20           N                    $657,421           $11,588                    $0        $669,009
Maryland-Fort Meade                             67           Y                          $0          $680,202        $1,139,365           $1,819,567
Pennsylvania-Philadelphia                       845          N                   $7,645,655        $1,289,668                   $0       $8,935,323
                            1
Pennsylvania-Stroudsburg                         1           N                          $0                $0                    $0               $0
Pennsylvania-Titusville                          1           N                          $0                $0                    $0               $0
Virginia-Richmond                                1           N                          $0                $0                    $0               $0
West Virginia-Wheeling                          22           N                    $386,561            $7,349                    $0        $393,910
                                 Subtotals      957                              $8,689,637        $1,988,807       $1,139,365          $11,817,809



                                                                      1
                                                                          

                                                                                                                                         09-P-0080




                                                                                                                                                     

                                                             EPA-Owned
                                                              Facility?       Rent/Lease Costs    Security Costs    Utility Costs
                                                                                   (Year)(a)                (b)              (b)
                       Location                  Employees      (Y/N)                                (Year)           (Year)              Total
REGION 4
Alabama-Mobile                                       1           N                          $0                $0            $2,760           $2,760
Alabama-Montgomery                                  45           Y                          $0                $0          $173,560         $173,560
Florida-Gulf Breeze                                 63           Y                          $0          $278,949          $439,502         $718,451
Florida-Marathon                                     1           N                          $0                $0                    $0            $0
Florida-West Palm Beach                              5           N                    $102,675                $0           $14,672         $117,347
Georgia-Athens                                      160          Y                   $2,158,259         $304,032          $874,107        $3,336,398
Georgia-Atlanta                                     923          N                   $9,304,405         $996,799                    $0   $10,301,204
Georgia-Atlanta (Spellman College)                  1            N                          $0                $0                    $0            $0
                   2
Hawaii-Honaun                                        1           N                          $0                $0                    $0            $0
Kentucky-Louisville                                  1           N                          $0                $0            $1,495           $1,495
Mississippi-Bay St. Louis                           25           N                    $540,000                $0                    $0     $540,000
North Carolina-Asheville                             1           N                          $0                $0                    $0            $0
North Carolina-Chapel Hill                          49           N                   $4,299,200         $150,000        $1,836,947        $6,286,147
North Carolina-Durham                              1221          Y                   $1,835,134        $3,294,791       $6,386,632       $11,516,557
North Carolina-Raleigh (NC State Univ.)              2           N                          $0                $0            $1,500           $1,500
North Carolina-Raleigh (New Bern Ave.)               1           N                        2,193               $0                    $0       $2,193
Tennessee-Jackson                                    1           N                      $4,728                $0            $3,332           $8,060
                                     Subtotals     2501                             $18,246,594        $5,024,571       $9,734,507       $33,005,672
REGION 5
Illinois-Chicago                                   1227          N                  $16,307,070        $1,548,307                   $0   $17,855,377
Illinois-Marion                                      1           N                      $2,400                $0            $2,100           $4,500
Michigan-Ann Arbor                                  278          N                   $2,470,328        $1,692,859         $754,585        $4,917,772
Michigan-Grosse Ile                                 15           Y                          $0           $13,000          $133,181         $146,181
Michigan-Traverse City                               1           N                          $0                $0            $2,220           $2,220
Michigan-Traverse City                               1           N                      $2,064                $0            $1,920           $3,984
Minnesota-Cass Lake                                  1           N                      $4,764                $0            $3,696           $8,460
Minnesota-Duluth                                    83           Y                      $3,688            $1,690          $446,522         $451,900
Minnesota-St. Paul                                   1           N                          $0                $0                    $0            $0



                                                                          2
                                                                              

                                                                                                                                    09-P-0080




                                                                                                                                                

                                                          EPA-Owned
                                                           Facility?       Rent/Lease Costs     Security Costs    Utility Costs
                                                                                (Year)(a)                 (b)              (b)
                       Location               Employees      (Y/N)                                 (Year)           (Year)            Total
Ohio-Cincinnati                                 485            Y                   $1,163,943        $2,151,206        $2,521,957    $5,837,106
Ohio-Cincinnati (Erlinger, KY)                   20           Y                           $0                $0                $0            $0
Ohio-Clermont                                     7           N                       $8,500                                  $0        $8,500
Ohio-Norwood                                     94           N                     $564,400           $13,289                $0      $577,689
Ohio-Westlake                                    19           N                     $243,258           $22,054                $0      $265,312
Wisconsin-Green Bay                               1           N                           $0                $0                $0            $0
Wisconsin-Keshena                                 1           N                           $0                $0            $2,436        $2,436
Wisconsin-Madison                                 1           N                           $0                $0                $0            $0
                                  Subtotals     2236                             $20,770,415         $5,442,405       $3,868,617    $30,081,437
REGION 6
Louisiana-New Orleans                             1           N                           $0                $0                $0            $0
Oklahoma-Ada                                     50           Y                       $3,233          $228,985          $198,490      $430,708
Oklahoma-Tulsa1                                   2           N                       $6,120            $1,609                $0        $7,729
Texas-Austin                                      1           N                           $0                $0                $0            $0
Texas-Dallas                                     811          N                   $5,791,508          $381,460                $0     $6,172,968
Texas-El Paso1                                    5           N                      $31,872              $371                $0       $32,243
Texas-Houston                                    55           N                   $1,563,427           $59,919          $518,713     $2,142,059
                                  Subtotals      925                              $7,396,160          $672,344          $717,203     $8,785,707
REGION 7
                   1
Iowa-Des Moines                                   4           N                      $16,488            $5,676                $0       $22,164
Iowa-Iowa City                                    1           N                           $0                $0                $0            $0
Kansas-Galena                                     1           N                           $0                $0                $0            $0
Kansas-Kansas City                               556          N                   $9,255,050         $1,204,193         $341,262    $10,800,505
Missouri-Fenton1                                  2           N                      $91,656              $131                $0       $91,787
                         1
Missouri-Jefferson City                           1           N                       $4,092               $96                $0        $4,188
Missouri-Kansas City1                             1           N                     $205,284           $16,848                $0      $222,132
Nebraska-Lincoln                                  1           N                       $7,860              $684                $0        $8,544
                                  Subtotals      567                              $9,580,430        $1,227,628          $341,262    $11,149,320




                                                                       3
                                                                           

                                                                                                                                        09-P-0080




                                                                                                                                                    

                                                            EPA-Owned
                                                             Facility?       Rent/Lease Costs    Security Costs    Utility Costs
                                                                                  (Year)(a)                (b)              (b)
                    Location                    Employees      (Y/N)                                (Year)           (Year)              Total
REGION 8
Colorado-Denver                                    557          N                   $8,759,468        $1,061,267                   $0    $9,820,735
Colorado-Golden                                    11           N                   $1,573,520          $23,564          $243,075        $1,840,159
Colorado-Lakewood                                  121          N                   $3,691,567         $190,098                    $0    $3,881,665
Montana-Butte                                       1           N                          $0                $0                    $0            $0
Montana-Helena                                     34           N                    $384,581           $43,988                    $0     $428,569
Montana-Libby                                       1           N                          $0                $0                    $0            $0
South Dakota-Pierre1                                1           N                      $2,400               $76                    $0       $2,476
                                    Subtotals      726                             $14,411,536        $1,318,993         $243,075       $15,973,604
REGION 9
American Samoa-Pago Pago                            6           N                          $0                $0                    $0            $0
Arizona-Phoenix                                     1           N                          $0                $0                    $0            $0
Arizona-Tucson                                      2           N                          $0                $0                    $0            $0
California-Eureka                                   1           N                          $0                $0                    $0            $0
California-Long Beach                               2           N                          $0                $0                    $0            $0
California-Los Angeles                             17           N                    $495,178           $10,649                    $0     $505,827
California-Richmond                                16           N                   $2,073,975               $0          $342,041        $2,416,016
California-Sacramento                               4           N                          $0                $0                    $0            $0
California-San Diego                                8           N                    $333,366            $3,280                    $0     $336,646
California-San Francisco                           829          N                   $7,977,540         $368,691                    $0    $8,346,231
Guam-Agana                                          1           N                          $0                $0                    $0            $0
Guam-Barrigada                                      1           N                          $0                $0                    $0            $0
Hawaii-Honolulu                                     2           N                    $131,806           $12,751                    $0     $144,557
Nevada-Carson City                                  3           N                          $0                $0                    $0            $0
Nevada-Las Vegas                                   149          N                   $6,066,417         $111,977          $637,500        $6,815,894
Nevada-Stateline                                    1           N                          $0                $0                    $0            $0
                         2
New Mexico-Farmington                               1           N                          $0                $0                    $0            $0
Northern Mariana Islands-Saipan, Mariana Isle      3            N                          $0                $0                    $0            $0
                                    Subtotals     1047                             $17,078,282         $507,348          $979,541       $18,565,171



                                                                         4
                                                                             

                                                                                                                                      09-P-0080




                                                                                                                                                  

                                                          EPA-Owned
                                                           Facility?       Rent/Lease Costs    Security Costs    Utility Costs
                                                                                (Year)(a)                (b)              (b)
                     Location                 Employees      (Y/N)                                (Year)           (Year)               Total
REGION 10
Alaska-Anchorage                                 35           N                    $322,861           $41,191                    $0      $364,052
Alaska-Juneau                                     3           N                     $51,060            $7,714                    $0       $58,774
Alaska-Kenai                                      1           N                      $9,636              $234                    $0        $9,870
Idaho-Boise                                      23           N                    $109,038            $3,614                    $0      $112,652
Idaho-Coeur d'Alene                               3           N                     $17,088              $353                    $0       $17,441
Idaho-Pocatello                                   1           N                          $0                $0                    $0             $0
Oregon-Corvallis                                 59           Y                    $445,412           $13,784          $387,365          $846,561
Oregon-Eugene                                     1           N                          $0                $0                    $0             $0
Oregon-La Grande                                  1           N                      $3,564              $152                    $0        $3,716
Oregon-Newport                                   20           Y                          $0                $0          $175,255          $175,255
Oregon-Portland                                  23           N                    $434,876            $7,598                    $0      $442,474
Washington-Lacey                                 12           N                    $132,511            $2,718                    $0      $135,229
Washington-Manchester                            18           Y                          $0                $0          $490,764          $490,764
Washington-Prosser                                1           N                      $2,628               $47                    $0        $2,675
Washington-Richland                              10           N                     $87,761            $1,905                    $0       $89,666
Washington-Seattle                               499          N                   $7,025,275         $871,379                    $0     $7,896,654
                                  Subtotals      710                              $8,641,710         $950,689        $1,053,384        $10,645,783
HEADQUARTERS
District of Columbia-Washington                 5302          N                  $78,754,637      $14,939,399          $821,464        $94,515,500
Virginia-Arlington                              1267          N                  $18,051,807        $4,681,732         $312,000        $23,045,539
                                  Subtotals     6569                             $96,806,444      $19,621,131        $1,133,464       $117,561,039
Office of Enforcement and Compliance
Assurance(c)
Arizona-Phoenix1                                  3
                                                              N                     $63,012            $3,159                    $0       $66,171
                         1
California-Sacramento                             1           N                     $74,964            $3,809                    $0       $78,773
                             1
Connecticut-New Haven                             3           N                     $95,976           $28,883                    $0      $124,859
                     1
Florida-Jacksonville                              4           N                    $148,104            $3,585                    $0      $151,689
Florida-Tampa1                                    1           N                     $60,348            $1,109                    $0       $61,457



                                                                       5
                                                                           

                                                                                                                                     09-P-0080




                                                                                                                                                 

                                                         EPA-Owned
                                                          Facility?       Rent/Lease Costs    Security Costs    Utility Costs
                                                                               (Year)(a)                (b)              (b)
                      Location               Employees      (Y/N)                                (Year)           (Year)              Total
Georgia-Brunswick1                               2            N                    $102,804            $1,569                   $0     $104,373
Georgia-Glynco                                   4           N                          $0                $0                    $0           $0
Idaho-Boise                                      2           N                          $0                $0                    $0           $0
Illinois-Chicago                                11           N                    $355,824            $3,883                    $0     $359,707
                          1
Indiana-Indianapolis                             2           N                     $65,527            $1,432                    $0      $66,959
                      1
Kentucky-Louisville                              2           N                     $42,876            $8,368                    $0      $51,244
Louisiana-Baton Rouge1                           5           N                    $149,664            $1,859                    $0     $151,523
Minnesota-Minneapolis1                           2           N                     $40,476            $3,267                    $0      $43,743
                      1
Mississippi-Jackson                              1           N                     $18,732            $4,306                    $0      $23,038
Missouri-St. Louis1                              2           N                     $53,820           $16,101                    $0      $69,921
Missouri-Springfield1                            1           N                       $7,764             $168                    $0       $7,932
                          1
New Jersey-Trenton                               4           N                     $84,840            $4,948                    $0      $89,788
New York-Syracuse1,4                             5           N                     $34,368              $797                    $0      $35,165
North Carolina-Charlotte                         1           N                     $21,192              $381                    $0      $21,573
North Carolina-Raleigh                           5           N                       $3,552             $116                    $0       $3,668
Ohio-Middleburg Heights1                         7           N                     $57,780            $1,360                    $0      $59,140
Oregon-Portland1                                 4           N                    $142,404            $1,846                    $0     $144,250
                          1
Tennessee-Knoxville                              3           N                     $45,960              $476                    $0      $46,436
Tennessee-Nashville1                             2           N                     $35,208            $6,259                    $0      $41,467
Utah-Salt Lake City1                             1           N                     $38,220           $10,069                    $0      $48,289
Virginia-Herndon                                 7           N                    $120,298            $2,428                    $0     $122,726
West Virginia-Charleston                         3           N                          $0                $0                    $0           $0
                                 Subtotals      85                               $1,863,713         $110,180                    $0    $1,973,893
Office of Inspector General
Tennessee-Winchester                             1           N                       $6,878               $0            $2,028           $8,906
                                 Subtotals       1                                   $6,878               $0            $2,028           $8,906
Office of Research and Development
Virginia-Hampton                                 1           N                          $0                $0                    $0           $0
                                 Subtotals       1                                      $0                $0                    $0           $0



                                                                      6
                                                                          

                                                                                                                                                       09-P-0080




                                                                                                                                                                    

                                                                  EPA-Owned
                                                                   Facility?         Rent/Lease Costs      Security Costs         Utility Costs
                                                                                          (Year)(a)                  (b)                   (b)
                   Location                        Employees         (Y/N)                                    (Year)                (Year)                 Total
Office of Air and Radiation
Florida-Key West                                        1               N                            $0                   $0                      $0               $0
                                      Subtotals         1                                            $0                   $0                      $0               $0


                                       TOTALS         18,054                              $235,103,187          $41,775,492          $21,297,426       $298,176,105


Notes
(a) Rent/Lease Costs – FY 2008 projected costs
(b) Security/Utilities Reported – FY 2007 costs
(c) Office of Enforcement and Compliance Assurance Criminal Investigation Division offices typically include special use space including secure storage,
    conference rooms, and interview rooms
1 - Full service leases, utilities are included in the base rent
2 - The location listed is where the regional employee resides
3 - Currently no Office of Enforcement and Compliance Assurance employee at location/employee is transferring
4 - Other costs such as LAN lines, cell phones are included under utilities




                                                                                 7
                                                                                     

                                                                                                                                                      09-P-0080


                                                                                                                                                 Enclosure 2

                            Total Costs for EPA Facilities with Five or Fewer Employees
                                         EPA-Owned         Rent/ Lease       Security Costs      Utility Costs                       Reason Provided by Agency for
                                                                       (a)             (b)                (b)
       Location             Employees   Facility? (Y/N)   Costs (Year)          (Year)             (Year)        Total              Maintaining EPA Staff at Location
REGION 1
No facilities outside                                                                                                         N/A
regional office with
5 or less employees
                Subtotals       0            N/A                       $0                   $0              $0           $0

REGION 2
Connecticut-Stamford           2              N                  $15,533                    $0              $0    $15,533     Section 119 of the Clean Water Act states
                                                                                                                              that the Administrator "shall establish an
                                                                                                                              office to be located on or near Long Island
                                                                                                                              Sound." The duties of the office are
                                                                                                                              elaborated on in Section 119 (c) and include
                                                                                                                              supporting the Management Conference of
                                                                                                                              the Long Island Sound Study established
                                                                                                                              under Section 320 of the Clean Water Act.
                                                                                                                              The program office works with Management
                                                                                                                              Conference partners throughout New York
                                                                                                                              and Connecticut and needs to be accessible
                                                                                                                              to these local partners. In addition, while
                                                                                                                              two EPA employees are located in the
                                                                                                                              office, two other federal employees
                                                                                                                              established through interagency agreements
                                                                                                                              and one Senior Environmental Employment
                                                                                                                              program staff are also located in the office.




                                                                                    8
                                                                                        

                                                                                                                                            09-P-0080




                                                                                                                                                        

                                EPA-Owned         Rent/ Lease       Security Costs     Utility Costs                       Reason Provided by Agency for
                                                              (a)             (b)               (b)
      Location     Employees   Facility? (Y/N)   Costs (Year)          (Year)            (Year)          Total            Maintaining EPA Staff at Location
New York-Buffalo       2              N                $31,692                    $0                $0    $31,692   This field office was created to serve the
                                                                                                                    residents and stakeholders of western New
                                                                                                                    York, which includes the expanse from
                                                                                                                    Syracuse to Buffalo and communities in nine
                                                                                                                    upstate counties. This office provides a wide
                                                                                                                    range of critical community involvement, and
                                                                                                                    intergovernmental and communications
                                                                                                                    programs to a variety of diverse
                                                                                                                    communities. EPA program areas covered
                                                                                                                    include: clean water and the Great Lakes,
                                                                                                                    international cooperative initiatives, and
                                                                                                                    hazardous waste. The on-site presence of
                                                                                                                    EPA experts is essential to the success of
                                                                                                                    EPA activities west of Syracuse as well as
                                                                                                                    cross-border initiatives. Region 2 has
                                                                                                                    out-posted an On-Scene Coordinator (OSC)
                                                                                                                    to Buffalo to support emergency response
                                                                                                                    and removal response activities in western
                                                                                                                    New York. This OSC has a variety of roles,
                                                                                                                    including responding to environmental
                                                                                                                    emergencies in this region, managing
                                                                                                                    environmental clean-ups, and acting as a
                                                                                                                    liaison with State and local environmental,
                                                                                                                    public health, and law enforcement officials.
                                                                                                                    Given the amount of work in this area, it is
                                                                                                                    critical to out-post an individual in this
                                                                                                                    location.




                                                                           9
                                                                               

                                                                                                                                                   09-P-0080




                                                                                                                                                               

                                     EPA-Owned         Rent/ Lease       Security Costs     Utility Costs                         Reason Provided by Agency for
                                                                   (a)             (b)               (b)
      Location          Employees   Facility? (Y/N)   Costs (Year)          (Year)            (Year)          Total              Maintaining EPA Staff at Location
New York-Hudson Falls       2              N                     $0                    $0                $0           $0   The vast size of the Hudson River PCB site
                                                                                                                           and the scope of the clean-up plan make
                                                                                                                           this an unusual and highly complex
                                                                                                                           Superfund site. EPA made many
                                                                                                                           commitments to the affected communities,
                                                                                                                           including a commitment to proactively
                                                                                                                           address community concerns and improve
                                                                                                                           its community outreach program. An
                                                                                                                           example of EPA commitment was the
                                                                                                                           establishment of the Hudson River Field
                                                                                                                           Office. Staffed by a Director and
                                                                                                                           Community Involvement Coordinator, this
                                                                                                                           office houses EPA field headquarters,
                                                                                                                           provides public information services, and is
                                                                                                                           a center of project data. There has been
                                                                                                                           extensive field work performed since the
                                                                                                                           office was established in 2002. The field
                                                                                                                           efforts were initiated in the summer of 2002
                                                                                                                           with a sediment sampling program. More
                                                                                                                           than 50,000 samples were collected over
                                                                                                                           the years under that program. In addition,
                                                                                                                           field personnel have overseen the
                                                                                                                           construction of a nearby 110 acre, $100M+
                                                                                                                           sediment processing facility. What has been
                                                                                                                           called the largest environmental dredging
                                                                                                                           project will begin next spring. Dredging is
                                                                                                                           expected to continue through 2015.
                                                                                                                           It is particularly important to have a local
                                                                                                                           presence, and central location for
                                                                                                                           construction oversight and community
                                                                                                                           involvement for the dredging program. The
                                                                                                                           Field Office is funded from a site-specific
                                                                                                                           special account established with funds
                                                                                                                           recovered from settlements.




                                                                                10
                                                                                     

                                                                                                                                                     09-P-0080




                                                                                                                                                                  

                                       EPA-Owned         Rent/ Lease       Security Costs       Utility Costs                    Reason Provided by Agency for
                                                                     (a)             (b)                 (b)
        Location          Employees   Facility? (Y/N)   Costs (Year)          (Year)              (Year)        Total           Maintaining EPA Staff at Location
Virgin Islands-               2              N               $118,140                  $905            *        $119,045   This Virgin Islands Coordinator's Office,
St. Thomas                                                                                                                 located in Charlotte Amalie, St. Thomas,
                                                                                                                           represents EPA Region 2 in the
                                                                                                                           geographical areas of St. John, St. Croix,
                                                                                                                           and St. Thomas. It is staffed with two full-
                                                                                                                           time equivalents (FTEs) that are responsible
                                                                                                                           for the planning and coordination of activities
                                                                                                                           necessary to implement regional programs,
                                                                                                                           goals, and objectives in the U.S. Virgin
                                                                                                                           Islands. They also represent the Director of
                                                                                                                           the Caribbean Environmental Protection
                                                                                                                           Division in dealings with territorial
                                                                                                                           government officials, the press, other federal
                                                                                                                           agencies, and private organizations; arrange
                                                                                                                           for technical assistance; and support
                                                                                                                           delivery of needed emergency response
                                                                                                                           actions. In addition, these FTEs conduct
                                                                                                                           compliance evaluation inspections at
                                                                                                                           regulated facilities, initiate enforcement
                                                                                                                           actions as necessary, and serve as project
                                                                                                                           officers for grants awarded to the U.S. Virgin
                                                                                                                           Islands.
              Subtotals       8                               $165,365                 $905                $0   $166,270
REGION 3
Pennsylvania-                 1             N                        $0                    $0              $0        $0    Improves spill response time and builds
           1
Stroudsburg                                                                                                                relationships with the State on important
                                                                                                                           emergency response and homeland security
                                                                                                                           preparedness matters.
Pennsylvania-Titusville       1             N                        $0                    $0              $0        $0    Improves oil and gas inspection coverage.
                                                                                                                           This location is centrally located to facilities
                                                                                                                           being inspected.
Virginia-Richmond             1             N                        $0                    $0              $0        $0    Improves spill response time and builds
                                                                                                                           relationships with the State on important
                                                                                                                           emergency response and homeland security
                                                                                                                           preparedness matters.
              Subtotals       3                                      $0                    $0              $0        $0




                                                                                  11
                                                                                       

                                                                                                                                              09-P-0080




                                                                                                                                                          

                                EPA-Owned         Rent/ Lease       Security Costs      Utility Costs                     Reason Provided by Agency for
                                                              (a)             (b)                (b)
      Location     Employees   Facility? (Y/N)   Costs (Year)          (Year)             (Year)        Total            Maintaining EPA Staff at Location
REGION 4
               2
Alabama-Mobile         1             N                        $0                   $0          $2,760     $2,760     Out-posted regional OSCs have proven to
                                                                                                                     be most beneficial to EPA's effectiveness in
                                                                                                                     support of State partners in responding to
                                                                                                                     emergencies. This arrangement has greatly
                                                                                                                     enhanced business relations with those
                                                                                                                     partners and improved both parties' use of
                                                                                                                     limited resources. Out-posted OSCs
                                                                                                                     supports EPA's Strategic Plan Sub-objective
                                                                                                                     4.1.2, “Reduce Chemical Risks at Facilities
                                                                                                                     and in Communities,” wherein EPA has
                                                                                                                     committed to build State capability to
                                                                                                                     prevent, prepare for, and respond to
                                                                                                                     chemical emergencies.
Florida-Marathon       1             N                        $0                   $0              $0           $0   Office is co-located with the Florida Keys
                                                                                                                     National Marine Sanctuary where the
                                                                                                                     employee works directly with State and local
                                                                                                                     governments on improving wastewater and
                                                                                                                     storm water treatment in the Florida Keys.
                                                                                                                     Being local he is available for meetings and
                                                                                                                     site visits, which in turn vastly improves
                                                                                                                     coordination and communications. He is
                                                                                                                     also responsible for Special Studies in the
                                                                                                                     Sanctuary and can work directly with
                                                                                                                     researchers on project modifications or other
                                                                                                                     issues as they arise. As a wetlands
                                                                                                                     regulator, he is able to inspect projects more
                                                                                                                     timely, as well as work with other agencies.




                                                                          12
                                                                               

                                                                                                                                           09-P-0080




                                                                                                                                                       

                                EPA-Owned         Rent/ Lease       Security Costs     Utility Costs                      Reason Provided by Agency for
                                                              (a)             (b)               (b)
        Location   Employees   Facility? (Y/N)   Costs (Year)          (Year)            (Year)         Total            Maintaining EPA Staff at Location
Florida-               5              N               $102,675                    $0          $14,672   $117,347   Water Division: By locating the South Florida
West Palm Beach                                                                                                    Geographic Initiative staff here, EPA
                                                                                                                   employees are able to conduct numerous
                                                                                                                   site inspections associated with Clean Water
                                                                                                                   Act Section 404 permit reviews and
                                                                                                                   enforcement actions. In addition, staff can
                                                                                                                   attend various meetings associated with the
                                                                                                                   Comprehensive Everglades Restoration
                                                                                                                   Plan, the Southeast Florida Coral Reef
                                                                                                                   Initiative/Land Based Sources of Pollution
                                                                                                                   Local Action Strategy, and other regional
                                                                                                                   initiatives. By locating staff in the
                                                                                                                   geographic area of interest, EPA core
                                                                                                                   programs and specific activities and projects
                                                                                                                   of the South Florida Geographic Initiative
                                                                                                                   are more effectively implemented. By
                                                                                                                   avoiding travel cost, limited travel money is
                                                                                                                   more efficiently used. Superfund Division:
                                                                                                                   As a Remedial Project Manager in the South
                                                                                                                   Florida office, the employee undertakes
                                                                                                                   Superfund program activities and cross
                                                                                                                   programmatic support functions, including:
                                                                                                                   (1) managing South Florida National
                                                                                                                   Priorities List sites, improved coordination
                                                                                                                   and communication with State and local
                                                                                                                   partners, and improved interaction of
                                                                                                                   federal, State, and local programs;
                                                                                                                   (2) providing field support and local
                                                                                                                   knowledge to other resource project
                                                                                                                   managers; (3) providing coordination and
                                                                                                                   technical assistance to State, and local
                                                                                                                   governments on federal Brownfields
                                                                                                                   initiatives; (4) reviewing Clean Water Act
                                                                                                                   Section 404 and Everglades Restoration
                                                                                                                   projects; and (5) providing Safety & Health
                                                                                                                   support and on-site technical support. This
                                                                                                                   staffing allows for shorter response time and
                                                                                                                   lower travel cost. Local presence results in
                                                                                                                   improved coordination and communication
                                                                                                                   with State and local partners and improved
                                                                                                                   interaction of federal, State, and local
                                                                                                                   programs.



                                                                           13
                                                                                

                                                                                                                                                   09-P-0080




                                                                                                                                                               

                                   EPA-Owned         Rent/ Lease       Security Costs       Utility Costs                         Reason Provided by Agency for
                                                                 (a)             (b)                 (b)
       Location       Employees   Facility? (Y/N)   Costs (Year)          (Year)              (Year)          Total              Maintaining EPA Staff at Location
Georgia-Atlanta           1              N                     $0                    $0                  $0           $0   In 2007, the Administrator signed a
                                                                                                                           memorandum of understanding with
                                                                                                                           Spellman College, a Historically Black
                                                                                                                           College and University, to further strengthen
                                                                                                                           coordination and cooperation between the
                                                                                                                           parties in several areas. In furtherance of
                                                                                                                           the goals of that memorandum of
                                                                                                                           understanding, Region 4 detailed an
                                                                                                                           employee to work with Spellman faculty,
                                                                                                                           staff, and students on several initiatives,
                                                                                                                           including an environmental policy
                                                                                                                           curriculum, environmental projects, and a
                                                                                                                           fall 2008 environmental conference. The
                                                                                                                           employee also co-teaches three classes.
Hawaii-Honaun             1             N                        $0                    $0               $0            $0   As part of an Interagency Agreement
                                                                                                                           between EPA Region 9 and Hawaii, this
                                                                                                                           Region 4 employee competed nationally and
                                                                                                                           obtained a developmental assignment to the
                                                                                                                           State's non-point source and watershed
                                                                                                                           management program. The experience
                                                                                                                           gained will ultimately improve EPA's ability
                                                                                                                           to work with States to achieve positive
                                                                                                                           improvements in water quality on the local
                                                                                                                           watershed scale.
Kentucky-Louisville       1             N                        $0                    $0          $1,495       $1,495     Out-posted regional OSCs have proven to
                                                                                                                           be most beneficial to EPA's effectiveness in
                                                                                                                           support of State partners in responding to
                                                                                                                           emergencies. This arrangement has greatly
                                                                                                                           enhanced business relations with those
                                                                                                                           partners and improved both parties' use of
                                                                                                                           limited resources. Out-posted OSCs
                                                                                                                           support “EPA's Strategic Plan Sub-objective
                                                                                                                           4.1.2, Reduce Chemical Risks at Facilities
                                                                                                                           and in Communities,” wherein EPA has
                                                                                                                           committed to build State capability to
                                                                                                                           prevent, prepare for, and respond to
                                                                                                                           chemical emergencies.




                                                                              14
                                                                                   

                                                                                                                                                         09-P-0080




                                                                                                                                                                     

                                        EPA-Owned         Rent/ Lease       Security Costs       Utility Costs                         Reason Provided by Agency for
                                                                      (a)             (b)                 (b)
       Location            Employees   Facility? (Y/N)   Costs (Year)          (Year)              (Year)          Total              Maintaining EPA Staff at Location
North Carolina-Asheville       1              N                     $0                    $0                  $0           $0   By locating this staff person in North
                                                                                                                                Carolina, she is able to conduct numerous
                                                                                                                                site inspections, participate in State and
                                                                                                                                federal meeting with partner agencies, and
                                                                                                                                conduct project overviews for Clean Water
                                                                                                                                Act Section 404 permits in North Carolina,
                                                                                                                                the second most active Region 4 State for
                                                                                                                                Section 404 permits. The employee is
                                                                                                                                housed at the Corps of Engineers Ashville
                                                                                                                                field office which also creates efficiency for
                                                                                                                                coordination of joint EPA and Corps of
                                                                                                                                Engineers activities.
North Carolina-Raleigh         2             N                        $0                    $0          $1,500       $1,500     This position is funded by Federal Highways
(NC State Univ.)                                                                                                                Administration and North Carolina
                                                                                                                                Department of Transportation to improve
                                                                                                                                coordination between the National
                                                                                                                                Environmental Policy Act (NEPA) and
                                                                                                                                Section 404 of the Clean Water Act in the
                                                                                                                                review of transportation projects. She is
                                                                                                                                located in Raleigh for the efficient
                                                                                                                                coordination with and effective
                                                                                                                                responsiveness to these agencies' requests
                                                                                                                                for field visits and meetings. Out-posting
                                                                                                                                results in reduced travel costs. EPA is
                                                                                                                                presently providing office space at Research
                                                                                                                                Triangle Park. The second position, an out-
                                                                                                                                posted regional OSC, has proven to be most
                                                                                                                                beneficial to EPA's effectiveness in support
                                                                                                                                of State partners in responding to
                                                                                                                                emergencies. This arrangement has greatly
                                                                                                                                enhanced business relations with those
                                                                                                                                partners and improved both parties’ use of
                                                                                                                                limited resources. Out-posting OSCs is
                                                                                                                                supportive of EPA's Strategic Plan Sub-
                                                                                                                                objective 4.1.2, “Reduce Chemical Risks at
                                                                                                                                Facilities and in Communities,” wherein EPA
                                                                                                                                has committed to build State capability to
                                                                                                                                prevent, prepare for, and respond to
                                                                                                                                chemical emergencies.




                                                                                   15
                                                                                        

                                                                                                                                                          09-P-0080




                                                                                                                                                                       

                                           EPA-Owned         Rent/ Lease       Security Costs       Utility Costs                       Reason Provided by Agency for
                                                                         (a)             (b)                 (b)
       Location               Employees   Facility? (Y/N)   Costs (Year)          (Year)              (Year)          Total           Maintaining EPA Staff at Location
North Carolina-Raleigh            1              N                  $2,193                   $0                  $0     $2,193   This position is funded by Federal Highway
(New Bern Ave.)                                                                                                                  Administration and North Carolina
                                                                                                                                 Department of Transportation to support
                                                                                                                                 streamlined NEPA reviews under
                                                                                                                                 SAFETEA-LU (Safe, Accountable, Flexible,
                                                                                                                                 Efficiency, Transportation Equity Act -
                                                                                                                                 Legacies for Use) Section 6002 for
                                                                                                                                 proposed transportation projects in North
                                                                                                                                 Carolina. He is located in Raleigh for
                                                                                                                                 efficient coordination for project meetings
                                                                                                                                 and site reviews. All funding for the position,
                                                                                                                                 travel, IT, and administrative cost is provided
                                                                                                                                 by these agencies.
Tennessee-Jackson                 1             N                   $4,728                     $0          $3,332       $8,060   Out-posted regional OSCs have proven to
                                                                                                                                 be most beneficial to EPA's effectiveness in
                                                                                                                                 support of State partners in responding to
                                                                                                                                 emergencies. This arrangement has greatly
                                                                                                                                 enhanced business relations with those
                                                                                                                                 partners and improved both parties' use of
                                                                                                                                 limited resources. Out-posted OSCs
                                                                                                                                 support EPA's Strategic Plan Sub-objective
                                                                                                                                 4.1.2, “Reduce Chemical Risks at Facilities
                                                                                                                                 and in Communities,” wherein EPA has
                                                                                                                                 committed to build State capability to
                                                                                                                                 prevent, prepare for, and respond to
                                                                                                                                 chemical emergencies.
                  Sub Total      15                               $109,596                     $0         $23,759     $133,355
REGION 5
Illinois-Marion                   1             N                   $2,400                     $0          $2,100       $4,500   See comments for Michigan-Traverse City
                                                                                                                                 below. The employee works from an office in
                                                                                                                                 the Carb Orchard National Wildlife Refuge
                                                                                                                                 within U.S. Fish and Wildlife Service
                                                                                                                                 (USFWS) office in Marion. EPA and
                                                                                                                                 USFWS have an agreement in place for use
                                                                                                                                 of USFWS office space.




                                                                                      16
                                                                                           

                                                                                                                                                   09-P-0080




                                                                                                                                                               

                                       EPA-Owned         Rent/ Lease       Security Costs     Utility Costs                     Reason Provided by Agency for
                                                                     (a)             (b)               (b)
       Location           Employees   Facility? (Y/N)   Costs (Year)          (Year)            (Year)         Total           Maintaining EPA Staff at Location
                      2
Michigan-Traverse City        1              N                     $0                    $0           $2,220     $2,220   Region 5 has established out-stationed
                                                                                                                          offices to better serve and support local
                                                                                                                          emergency responders in the event of a
                                                                                                                          hazmat, oil, major terrorist attack, or other
                                                                                                                          catastrophe. Out-stationed offices have
                                                                                                                          increased service to the States, improved
                                                                                                                          response readiness and coordination of
                                                                                                                          multi-jurisdiction response efforts, and
                                                                                                                          advanced the removal program through
                                                                                                                          awareness, reduction in response times,
                                                                                                                          and outreach with State and local
                                                                                                                          responders. After September 11, 2001, it
                                                                                                                          became apparent that having key personnel
                                                                                                                          in more than one station would prevent
                                                                                                                          shutdowns that would occur if everyone was
                                                                                                                          stationed at the same location. Having
                                                                                                                          personnel in various locations would ensure
                                                                                                                          that there would always be one area that
                                                                                                                          would be functional and accessible in any
                                                                                                                          national disaster. Prior to 9/11, Region 5
                                                                                                                          was almost the only region with out-
                                                                                                                          stationed offices; today most regions have
                                                                                                                          them. Currently Region 5 Emergency
                                                                                                                          Response Branches have out-stationed
                                                                                                                          OSC positions in Cincinnati, Ohio; Traverse
                                                                                                                          City, Michigan; Minneapolis/St. Paul,
                                                                                                                          Minnesota; Marion, Illinois; and Green Bay,
                                                                                                                          Wisconsin. The employee out-stationed in
                                                                                                                          Traverse City works out of his home,
                                                                                                                          although usually works at temporary duty
                                                                                                                          stations on job sites. He is not
                                                                                                                          compensated for his office space, but, is
                                                                                                                          provided with Internet, mail drop, and a land-
                                                                                                                          line phone.




                                                                                  17
                                                                                       

                                                                                                                                                        09-P-0080




                                                                                                                                                                    

                                          EPA-Owned         Rent/ Lease       Security Costs       Utility Costs                      Reason Provided by Agency for
                                                                        (a)             (b)                 (b)
       Location              Employees   Facility? (Y/N)   Costs (Year)          (Year)              (Year)         Total            Maintaining EPA Staff at Location
Michigan-Traverse City           1              N                  $2,064                   $0             $1,920     $3,984   Located in Traverse City, Michigan, Cass
                                                                                                                               Lake, Minnesota, and Keshena, Wisconsin
                                                                                                                               (this employee now works from his home
                                                                                                                               instead of the Stevens Point location), each
                                                                                                                               of the Tribal Environmental Liaisons serve to
                                                                                                                               facilitate the delivery of EPA programs and
                                                                                                                               services to the federally recognized tribes
                                                                                                                               within the State where they are located and
                                                                                                                               provide first-line technical assistance with
                                                                                                                               the development of tribal environmental
                                                                                                                               management capacity. Additional costs
                                                                                                                               include costs for building occupancy service
                                                                                                                               fees such as cleaning, parking,
                                                                                                                               maintenance, etc.; costs for land lines and
                                                                                                                               Internet services; and cell phone services.
                         2
Minnesota-Cass Lake              1             N                   $4,764                     $0          $3,696      $8,460   See details for Michigan-Traverse City
                                                                                                                               above.
Minnesota-St. Paul               1             N                        $0                    $0              $0         $0    See details for Michigan-Traverse City
                                                                                                                               above. No charges were incurred per our
                                                                                                                               memorandum of understanding with the
                                                                                                                               Minnesota Pollution Control Agency
                                                                                                                               (MPCA). The employee works from a
                                                                                                                               cubicle within the Emergency Response
                                                                                                                               Group at the MPCA office in St. Paul. EPA
                                                                                                                               and MPCA have a memorandum of
                                                                                                                               understanding in place for use of MPCA
                                                                                                                               office space. MPCA provides the work
                                                                                                                               space at no cost to EPA.
Wisconsin-Green Bay              1             N                        $0                    $0              $0         $0    See details for Michigan-Traverse City
                                                                                                                               above. No charges incurred per our
                                                                                                                               agreement with Wisconsin Department of
                                                                                                                               Natural Resources (WDNR). WDNR is
                                                                                                                               providing a cubicle, locked storage space in
                                                                                                                               the lab and the cage, and unsecured
                                                                                                                               storage in the garage. All utilities (two
                                                                                                                               phone lines and electric) are paid by WDNR.
                                                                                                                               Parking is unlimited and free. All security is
                                                                                                                               automated (key cards, etc) and provided by
                                                                                                                               WDNR.
                     2
Wisconsin-Keshena                1             N                        $0                    $0          $2,436      $2,436   See details for Michigan-Traverse City
                                                                                                                               above.




                                                                                     18
                                                                                          

                                                                                                                                                         09-P-0080




                                                                                                                                                                      

                                        EPA-Owned         Rent/ Lease       Security Costs       Utility Costs                         Reason Provided by Agency for
                                                                      (a)             (b)                 (b)
      Location             Employees   Facility? (Y/N)   Costs (Year)          (Year)              (Year)          Total              Maintaining EPA Staff at Location
Wisconsin-Madison              1              N                     $0                    $0                  $0           $0   Water Division has one employee that is
                                                                                                                                out-stationed in Madison at the WDNR
                                                                                                                                offices. He is located at the State office
                                                                                                                                because he is our liaison for the Wisconsin
                                                                                                                                ground water and drinking water programs.
                                                                                                                                His being located at the State office
                                                                                                                                facilitates better knowledge for EPA about
                                                                                                                                the daily workings of the State program that
                                                                                                                                we do not have working from Chicago. The
                                                                                                                                State benefits from having easier access to
                                                                                                                                an EPA staff person to ask program
                                                                                                                                questions that also would be more difficult if
                                                                                                                                that person were located in Chicago.
                                                                                                                                Therefore, the State is providing him with
                                                                                                                                office space at no cost to EPA.
               Sub Total       8                                 $9,228                     $0         $12,372      $21,600
REGION 6
Louisiana-New Orleans          1             N                        $0                    $0               $0            $0   We have one Senior Environmental
                                                                                                                                Employment employee who works for the
                                                                                                                                Superfund Division for the Brownfield's
                                                                                                                                program.
                 1
Oklahoma-Tulsa                 2             N                   $6,120              $1,609                  $0      $7,729     This facility replaced the Pawhuska,
                                                                                                                                Oklahoma, facility. The employees are
                                                                                                                                responsible for the Underground Injection
                                                                                                                                Control (UIC) Program and all aspects of oil
                                                                                                                                and gas production that are not delegated.
                                                                                                                                The work is predominately on tribal land.
Texas-Austin                   1             N                        $0                    $0               $0            $0   We have an interagency agreement with the
                                                                                                                                Department of Transportation for one
                                                                                                                                employee to work with the Texas Highway
                                                                                                                                Department to perform NEPA reviews of
                                                                                                                                State Highways. The interagency agreement
                                                                                                                                funds will be depleted by March 2009. The
                                                                                                                                EPA employee is co-located with the
                                                                                                                                Department of Transportation. EPA incurs
                                                                                                                                no charges.




                                                                                   19
                                                                                        

                                                                                                                                                     09-P-0080




                                                                                                                                                                 

                                      EPA-Owned         Rent/ Lease       Security Costs       Utility Costs                      Reason Provided by Agency for
                                                                    (a)             (b)                 (b)
      Location           Employees   Facility? (Y/N)   Costs (Year)          (Year)              (Year)          Total           Maintaining EPA Staff at Location
              1
Texas-El Paso                5              N                $31,872                  $371                  $0    $32,243   The El Paso Border Office staff provides the
                                                                                                                            on-site daily collaboration and partnerships
                                                                                                                            needed to ensure continued environmental
                                                                                                                            progress toward the goals of the U.S.-
                                                                                                                            Mexico Border 2012 program. The staff
                                                                                                                            partners and collaborates to achieve
                                                                                                                            environmental results through capacity
                                                                                                                            building, partnerships, and projects along
                                                                                                                            the length of the border with Mexico, New
                                                                                                                            Mexico, and Texas. Partners included:
                                                                                                                            State, local, and federal agencies on both
                                                                                                                            sides of the border; non-profit organizations
                                                                                                                            and non governmental organizations;
                                                                                                                            industry and trade associations; academia;
                                                                                                                            grass roots organizations; and other
                                                                                                                            agencies, such as the International
                                                                                                                            Boundary Water Commission and their
                                                                                                                            Mexican counterparts, and the Border
                                                                                                                            Environmental Cooperation Commission,
                                                                                                                            Pan American Health Organizations, and
                                                                                                                            others.
             Subtotals       9                                $37,992              $1,980                  $0     $39,972

REGION 7
Iowa-Des Moines1             4             N                  $16,488              $5,676                  $0     $22,164   At this location there is: one Pesticide
                                                                                                                            inspector who provides support and
                                                                                                                            oversight to the Iowa pesticides program;
                                                                                                                            two staff doing direct implementation of the
                                                                                                                            UIC Program because Iowa does not have
                                                                                                                            authorization to implement the UIC program;
                                                                                                                            and one Resource Conservation and
                                                                                                                            Recovery Act (RCRA) Inspector, since EPA
                                                                                                                            also directly implements the RCRA program
                                                                                                                            in Iowa.
Iowa-Iowa City               1             N                        $0                    $0               $0         $0    Iowa requested EPA implement the RCRA
                                                                                                                            program for them. This one EPA employee
                                                                                                                            conducts the RCRA inspections and works
                                                                                                                            out of his home at no cost to EPA.
Kansas-Galena                1             N                        $0                    $0               $0         $0    This one EPA employee works on the Tri-
                                                                                                                            County Superfund site, and Kansas provides
                                                                                                                            him space at no cost to EPA.




                                                                                 20
                                                                                      

                                                                                                                                                              09-P-0080




                                                                                                                                                                           

                                            EPA-Owned         Rent/ Lease       Security Costs        Utility Costs                      Reason Provided by Agency for
                                                                          (a)             (b)                  (b)
      Location                 Employees   Facility? (Y/N)   Costs (Year)          (Year)               (Year)          Total           Maintaining EPA Staff at Location
               1
Missouri-Fenton                    2              N                $91,656                  $131                   $0    $91,787   The Fenton location is the site where
                                                                                                                                   Superfund stores equipment and vehicles
                                                                                                                                   for the many lead sites in eastern Missouri,
                                                                                                                                   the largest of which is Herculaneum.
                           1
Missouri-Jefferson City            1             N                   $4,092                     $96               $0      $4,188   This is a Pesticide Field Office, housing a
                                                                                                                                   federally credentialed pesticide inspector
                                                                                                                                   who provides support and oversight to the
                                                                                                                                   Missouri pesticides program. As the primary
                                                                                                                                   and ongoing EPA presence in Missouri, this
                                                                                                                                   office serves a critical role in facilitating
                                                                                                                                   communication on all EPA programs with
                                                                                                                                   the general public and regulated community.
                       1
Missouri-Kansas City               1             N                 $205,284             $16,848                   $0    $222,132   This location is an extension of the regional
                                                                                                                                   office facility in Kansas City. Most of the
                                                                                                                                   space serves as a warehouse/staging facility
                                                                                                                                   for the Region's emergency response group
                                                                                                                                   under the Superfund Division. The
                                                                                                                                   remaining space houses the Region's
                                                                                                                                   Continuity of Operations site, which is also
                                                                                                                                   used as a regional training facility, and
                                                                                                                                   fabrication/storage sections that support the
                                                                                                                                   Office of Solid Waste and Emergency
                                                                                                                                   Response, National Decontamination Team,
                                                                                                                                   Airborne Spectral Photometric
                                                                                                                                   Environmental Collection Technology
                                                                                                                                   (ASPECT) Program.
                   1
Nebraska-Lincoln                   1             N                   $7,860                 $684                  $0      $8,544   This is a Pesticide Field Office, housing a
                                                                                                                                   federally credentialed pesticide inspector
                                                                                                                                   who provides support and oversight to the
                                                                                                                                   Nebraska pesticides program. EPA is
                                                                                                                                   responsible for direct implementation of
                                                                                                                                   pesticide programs in Indian County and this
                                                                                                                                   field office is responsible for coordinating
                                                                                                                                   and/or implementing pesticide inspection
                                                                                                                                   activities on tribal lands.
              Subtotals           11                               $325,380             $23,435                   $0    $348,815
REGION 8
Montana-Butte                     1              N                        $0                    $0                $0         $0    The EPA Butte Field Office is co-located
                                                                                                                                   with the Butte Silver Bow Courthouse. It is
                                                                                                                                   our understanding that EPA pays no rent,
                                                                                                                                   utilities, or security costs for this facility.



                                                                                       21
                                                                                            

                                                                                                                                                        09-P-0080




                                                                                                                                                                    

                                       EPA-Owned         Rent/ Lease       Security Costs        Utility Costs                        Reason Provided by Agency for
                                                                     (a)             (b)                  (b)
      Location            Employees   Facility? (Y/N)   Costs (Year)          (Year)               (Year)          Total             Maintaining EPA Staff at Location
Montana-Libby                 1              N                     $0                    $0                   $0           $0   This is a Superfund Field Office per
                                                                                                                                congressional mandate; there is no net cost
                                                                                                                                for this staff person or for this space,
                                                                                                                                co-located with an information center.
                     1
South Dakota-Pierre           1             N                   $2,400                     $76               $0      $2,476     Tribal drinking water oversight, co-located
                                                                                                                                with the Indian Health Service.
             Subtotals        3                                 $2,400                     $76               $0      $2,476
REGION 9
Arizona-Phoenix               1             N                        $0                    $0                $0            $0   Place-based employees. Region 9's place-
                                                                                                                                basing policy provides for stationing
                                                                                                                                experienced employees in priority areas
                                                                                                                                where programmatic outcomes will be
                                                                                                                                enhanced by frequent face-to-face
                                                                                                                                interaction with the public and with other
                                                                                                                                federal, State, and local agencies.
Arizona-Tucson                2             N                        $0                    $0                $0            $0   Place-based employee. See above
                                                                                                                                explanation.
California-Eureka             1             N                        $0                    $0                $0            $0   Place-based employee. See above
                                                                                                                                explanation.
California-Long Beach         2             N                        $0                     $0               $0            $0   Place-based employees. See above
                                                                                                                                explanation.
California-Sacramento         4             N                        $0                    $0                $0            $0   Two place-based employees. Two
                                                                                                                                Intergovernmental Personnel Act (IPAs)
                                                                                                                                employees. See above explanation.
Guam-Agana                    1             N                        $0                     $0               $0            $0   Public Health Service officer on
                                                                                                                                reimbursable detail. See above explanation.
Guam-Barrigada                1             N                        $0                    $0                $0            $0   IPA employee. See above explanation.
Hawaii-Honolulu               2             N                        $0                    $0                $0            $0   IPA employees. See above explanation.
Nevada-Carson City            3             N                        $0                    $0                $0            $0   Place-based employees. See above
                                                                                                                                explanation.
Nevada-Stateline              1             N                        $0                     $0               $0            $0   Place-based employee. See above
                                                                                                                                explanation.
New Mexico-                   1             N                        $0                     $0               $0            $0   Place-based employee. See above
Farmington                                                                                                                      explanation.
Northern Mariana              3             N                        $0                     $0               $0            $0   One IPA employee, two Public Health
Islands-Saipan, Mariana                                                                                                         Service officers on reimbursable details.
Isle                                                                                                                            See above explanation.
             Subtotals       22                                      $0                     $0               $0            $0




                                                                                  22
                                                                                       

                                                                                                                                        09-P-0080




                                                                                                                                                     

                              EPA-Owned         Rent/ Lease       Security Costs    Utility Costs                   Reason Provided by Agency for
                                                            (a)             (b)              (b)
      Location   Employees   Facility? (Y/N)   Costs (Year)          (Year)           (Year)        Total          Maintaining EPA Staff at Location
REGION 10
Alaska-Juneau        3             N                  $51,060             $7,714               $0    $58,774   Having staff in the State capital allows
                                                                                                               frequent personal communication at a senior
                                                                                                               level with State agencies and facilitates
                                                                                                               early resolution and prevention of problems
                                                                                                               before they become serious. The benefits
                                                                                                               associated with this close proximity to work
                                                                                                               are: (1) face-to-face real-time interactions
                                                                                                               between the field office and State improve
                                                                                                               communication, maximize efficiency, and
                                                                                                               facilitate effective program results; (2)
                                                                                                               emergencies and spills are responded to
                                                                                                               much more quickly, especially in Alaska and
                                                                                                               Idaho, where emergency response from
                                                                                                               Seattle is just not feasible; (3) understanding
                                                                                                               of developing State legislative issues and
                                                                                                               other State-specific knowledge improve the
                                                                                                               effectiveness of the Region; (4) partnerships
                                                                                                               with other federal agencies also located in
                                                                                                               nearby offices facilitate coordination on
                                                                                                               related issues; and (5) Performance
                                                                                                               Partnership Agreement negotiations are
                                                                                                               easier.
Alaska-Kenai         1             N                   $9,636                $234              $0     $9,870   Focuses on Kenai as a priority watershed.
                                                                                                               Conducts enforcement inspections,
                                                                                                               outreach; work with Tribes, others. Reviews
                                                                                                               and comments on Corps of Engineers Clean
                                                                                                               Water Act Section 404 permits in Kenai.
                                                                                                               Conducts NEPA reviews on local projects.
                                                                                                               Serves as Project Officer for wetlands grants
                                                                                                               and line-item appropriations to Kenai River
                                                                                                               Watershed Forum. Encourages and assists
                                                                                                               Kenai communities in wetland/watershed
                                                                                                               conservation planning and restoration
                                                                                                               projects. Serves as EPA liaison to Kenai
                                                                                                               River Center. Assists local, State, and tribal
                                                                                                               governments in the development of
                                                                                                               information and strategies for
                                                                                                               wetland/watershed conservation plans.




                                                                        23
                                                                             

                                                                                                                                                09-P-0080




                                                                                                                                                            

                                   EPA-Owned         Rent/ Lease       Security Costs     Utility Costs                      Reason Provided by Agency for
                                                                 (a)             (b)               (b)
       Location       Employees   Facility? (Y/N)   Costs (Year)          (Year)            (Year)          Total           Maintaining EPA Staff at Location
Idaho-Coeur d'Alene       3              N                $17,088                  $353                $0    $17,441   The Coeur d'Alene Basin Superfund clean-
                                                                                                                       up project is a regional priority and, because
                                                                                                                       most of the parties responsible for the
                                                                                                                       contamination are bankrupt, EPA is in the
                                                                                                                       lead for most of the work. The clean-up is
                                                                                                                       expected to cost more than $2 billion and
                                                                                                                       take approximately 40 years to complete.
                                                                                                                       Maintaining an on-the-ground presence with
                                                                                                                       EPA staff stationed in Coeur d'Alene Basin
                                                                                                                       allows EPA to better respond to community
                                                                                                                       issues, coordinate with the stakeholders,
                                                                                                                       and oversee clean-up work. EPA also has
                                                                                                                       an emergency responder stationed in Coeur
                                                                                                                       d'Alene who has proven to be invaluable in
                                                                                                                       building a stronger relationship with Idaho,
                                                                                                                       as well as local responders, and also
                                                                                                                       providing faster response times to incidents
                                                                                                                       in Eastern Washington and Northern Idaho.
                                                                                                                       This area is rich in abandoned mines and,
                                                                                                                       due to its remoteness and numerous
                                                                                                                       roadways along river corridors, a significant
                                                                                                                       number of transportation and other types of
                                                                                                                       emergency responses. Finally, the Office of
                                                                                                                       Water and Watersheds has one staff person
                                                                                                                       stationed in the Coeur d'Alene field office
                                                                                                                       and has seen real benefits because of the
                                                                                                                       very intensive work they are responsible for
                                                                                                                       in the Spokane/Coeur d'Alene area:
                                                                                                                       development of the Lake Management Plan,
                                                                                                                       National Pollutant Discharge Elimination
                                                                                                                       System permitting for Spokane River
                                                                                                                       dischargers, the Total Maximum Daily Load
                                                                                                                       for the Spokane River; and more. These
                                                                                                                       activities require intensive interaction with
                                                                                                                       local and State officials in the Spokane-
                                                                                                                       Coeur d'Alene area, and EPA's success is
                                                                                                                       partly a function of that interaction.




                                                                              24
                                                                                   

                                                                                                                                                       09-P-0080




                                                                                                                                                                   

                                      EPA-Owned         Rent/ Lease       Security Costs        Utility Costs                        Reason Provided by Agency for
                                                                    (a)             (b)                  (b)
       Location         Employees    Facility? (Y/N)   Costs (Year)          (Year)               (Year)          Total             Maintaining EPA Staff at Location
Idaho-Pocatello             1               N                     $0                    $0                   $0           $0   Community Involvement Coordinator for the
                                                                                                                               Eastern Michaud Flats and FMC site
                                                                                                                               closure/redevelopment. Promotes
                                                                                                                               EPA/Shoshone-Bannock Tribal trust
                                                                                                                               relationship. Supports Portneuf watershed
                                                                                                                               restoration by identifying projects, building
                                                                                                                               local problem-solving capacity.
Oregon-Eugene               1              N                        $0                     $0               $0            $0   Assists in the development, review, and
                                                                                                                               implementation of basin and watershed
                                                                                                                               protection and restoration strategies in
                                                                                                                               southwest Oregon, the Willamette Valley,
                                                                                                                               and the Mid Coast basin. Participates with
                                                                                                                               State on local communities, workgroups,
                                                                                                                               and interagency teams. Helps focus EPA
                                                                                                                               resources on local issues, and provides
                                                                                                                               policy input to regional and state program
                                                                                                                               managers. Participates on Northwest Forest
                                                                                                                               Plan Province Committees.
Oregon-La Grande            1              N                   $3,564                 $152                  $0      $3,716     Provides services to under-serviced areas of
                                                                                                                               eastern Oregon through technical and
                                                                                                                               financial assistance and working with local
                                                                                                                               entities through other opportunities under
                                                                                                                               various EPA programs; develops
                                                                                                                               interagency, tribal, and community networks;
                                                                                                                               and serves as liaison between EPA and
                                                                                                                               local entities.
Washington-Prosser          1              N                   $2,628                     $47               $0      $2,675     Delivers technical and policy information
                                                                                                                               related to pesticides and Food Quality
                                                                                                                               Protection Act directly to farmers, ranchers,
                                                                                                                               local and State agencies, and interest
                                                                                                                               groups. Provides technical assistance to
                                                                                                                               growers transitioning from the most toxic
                                                                                                                               pesticides and those being phased out by
                                                                                                                               EPA. Serves as the liaison for EPA to area
                                                                                                                               research programs and advocacy groups to
                                                                                                                               evaluate, encourage, and promote the use
                                                                                                                               of integrated pest management and reduce
                                                                                                                               reliance on the most toxic pesticides.
                TOTAL                                         $83,976              $8,500                   $0     $92,476
                                11




                                                                                 25
                                                                                      

                                                                                                                                                       09-P-0080




                                                                                                                                                                    

                                         EPA-Owned         Rent/ Lease       Security Costs      Utility Costs                     Reason Provided by Agency for
                                                                       (a)             (b)                (b)
       Location             Employees   Facility? (Y/N)   Costs (Year)          (Year)             (Year)        Total            Maintaining EPA Staff at Location
Office of Enforcement
and Compliance
                  (c)
Assurance (OECA)
Arizona-Phoenix1                0             N                  $63,012             $3,159                 $0    $66,171     OECA Criminal Investigation Division (CID)
                                                                                                                              Resident Office - Reports to a CID Area
                                                                                                                              Office (either directly or through a CID Field
                                                                                                                              Office) and is responsible for the conduct of
                                                                                                                              criminal investigations in their geographic
                                                                                                                              area of responsibility.
                        1
California-Sacramento           1             N                  $74,964             $3,809                 $0    $78,773     OECA CID Resident Office - see details for
                                                                                                                              OECA Arizona-Phoenix above.
Connecticut-New                 3             N                  $95,976            $28,883                 $0   $124,859     OECA CID Resident Office - see details for
       1
Haven                                                                                                                         OECA Arizona-Phoenix above.
                    1
Florida-Jacksonville            4             N                 $148,104             $3,585                 $0   $151,689     OECA CID National Computer Forensics
                                                                                                                              Lab - a national response team providing
                                                                                                                              computer evidence search and seizure
                                                                                                                              assistance to CID offices nationwide by
                                                                                                                              performing analysis of seized computer
                                                                                                                              evidence, training, and conducting research
                                                                                                                              and development.
                1
Florida-Tampa                   1             N                  $60,348             $1,109                 $0    $61,457     OECA CID Resident Office - see details for
                                                                                                                              OECA Arizona-Phoenix above.
                    1
Georgia-Brunswick               2             N                 $102,804             $1,569                 $0   $104,373     OECA CID Secured Storage Facility - a
                                                                                                                              warehouse space and storage facility used
                                                                                                                              to house, receive, and distribute law
                                                                                                                              enforcement communications, IT, personal
                                                                                                                              property, equipment, and supplies (i.e.,
                                                                                                                              weapons and ammunition).
Georgia-Glynco                  4             N                        $0                   $0              $0           $0   OECA CID - Glynco - Federal Law
                                                                                                                              Enforcement Training Center. An
                                                                                                                              interagency law enforcement training site
                                                                                                                              within the Department of Homeland Security
                                                                                                                              training facility.
Idaho-Boise                     2             N                        $0                   $0              $0           $0   OECA CID Resident Office - see details for
                                                                                                                              OECA Arizona-Phoenix above.
Indiana-Indianapolis1           2             N                  $65,527             $1,432                 $0    $66,959     OECA CID Resident Office - see details for
                                                                                                                              OECA Arizona-Phoenix above.
                    1
Kentucky-Louisville             2             N                  $42,876             $8,368                 $0    $51,244     OECA CID Resident Office - see details for
                                                                                                                              OECA Arizona-Phoenix above.
Louisiana-Baton                 5             N                 $149,664             $1,859                 $0   $151,523     OECA CID Resident Office - see details for
       1
Rouge                                                                                                                         OECA Arizona-Phoenix above.



                                                                                   26
                                                                                        

                                                                                                                                                          09-P-0080




                                                                                                                                                                       

                                          EPA-Owned         Rent/ Lease       Security Costs      Utility Costs                      Reason Provided by Agency for
                                                                        (a)             (b)                (b)
      Location               Employees   Facility? (Y/N)   Costs (Year)          (Year)             (Year)           Total          Maintaining EPA Staff at Location
                      1
Minnesota-Minneapolis            2              N                $40,476               $3,267                  $0     $43,743    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
                       1
Mississippi-Jackson              1             N                  $18,732             $4,306                  $0      $23,038    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
                   1
Missouri-St Louis                2             N                  $53,820            $16,101                  $0      $69,921    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
                       1
Missouri-Springfield             1             N                   $7,764                $168                 $0       $7,932    Lease expired 8/30/2008.
New Jersey-Trenton1              4             N                  $84,840             $4,948                  $0      $89,788    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
                       1
New York-Syracuse                5             N                  $34,368                $797                 $0      $35,165    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
North Carolina-                  1             N                  $21,192                $381                 $0      $21,573    OECA CID Resident Office - see details for
Charlotte                                                                                                                        OECA Arizona-Phoenix above.
North Carolina-Raleigh           5             N                   $3,552               $116                  $0       $3,668    OECA office, storage, parking.
Oregon-Portland1                 4             N                 $142,404             $1,846                  $0     $144,250    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
Tennessee-Knoxville1             3             N                  $45,960                $476                 $0      $46,436    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
Tennessee-Nashville1             2             N                  $35,208             $6,259                  $0      $41,467    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
Utah-Salt Lake City1             1             N                  $38,220            $10,069                  $0      $48,289    OECA CID Resident Office - see details for
                                                                                                                                 OECA Arizona-Phoenix above.
West Virginia-                   2             N                 unknown                     $0               $0           $0    OECA CID Resident Office - see details for
Charleston                                                                                                                       OECA Arizona-Phoenix above.
                 Subtotals      59                             $1,329,811           $102,509                  $0    $1,432,320

Office of Inspector
General
Tennessee-Winchester             1             N                   $6,878                    $0          $2,028        $8,906    An agent was assigned to Winchester to
                                                                                                                                 allow better coverage and save on travel
                                                                                                                                 costs to conduct investigations in
                                                                                                                                 Tennessee and Kentucky. These States
                                                                                                                                 have had a history of numerous
                                                                                                                                 investigations. Estimated annual cost
                                                                                                                                 savings in salary due to lower locality pay is
                                                                                                                                 estimated to be $17,314
                 Subtotals       1                                 $6,878                    $0          $2,028        $8,906




                                                                                    27
                                                                                         

                                                                                                                                                   09-P-0080




                                                                                                                                                               

                                     EPA-Owned         Rent/ Lease       Security Costs      Utility Costs                     Reason Provided by Agency for
                                                                   (a)             (b)                (b)
       Location         Employees   Facility? (Y/N)   Costs (Year)          (Year)             (Year)        Total            Maintaining EPA Staff at Location
Office of Research
and Development

Virginia-Hampton           1              N                        $0                   $0              $0           $0   The efforts of this employee at NASA
                                                                                                                          Langley Research Center in Hampton are
                                                                                                                          focused on mutual interest between the EPA
                                                                                                                          Office of Research and Development
                                                                                                                          National Exposure Research Laboratory and
                                                                                                                          the NASA Science Mission directorate Earth
                                                                                                                          Science Division Applied Sciences Program
                                                                                                                          in the area of air quality and public health.
                                                                                                                          The National Exposure Research Laboratory
                                                                                                                          conducts research and development on
                                                                                                                          improved methods, measurements and
                                                                                                                          models to assess and predict exposure of
                                                                                                                          humans and ecosystems to harmful
                                                                                                                          pollutants and other conditions in air, water,
                                                                                                                          soil, and monitoring methods; computer
                                                                                                                          modeling of pollutants transport and fate;
                                                                                                                          monitoring network design; environmental
                                                                                                                          indicators; and design of exposure
                                                                                                                          assessment studies. NASA Earth Science
                                                                                                                          Division supports research to answer
                                                                                                                          fundamental sciences questions about the
                                                                                                                          Earth system and produces many important
                                                                                                                          results that are of near-term practical use to
                                                                                                                          society. The Earth Sciences Division
                                                                                                                          Applied Sciences Program focuses on
                                                                                                                          extending the application of NASA Earth
                                                                                                                          science research and technology to support
                                                                                                                          partner organizations management and
                                                                                                                          decision making. Two of the key
                                                                                                                          applications areas that the Applied Sciences
                                                                                                                          Program addresses are Air Quality and
                                                                                                                          Public Health.
            Subtotals       1                                      $0                   $0              $0           $0




                                                                               28
                                                                                    

                                                                                                                                                               09-P-0080




                                                                                                                                                                           

                                            EPA-Owned          Rent/ Lease       Security Costs      Utility Costs                           Reason Provided by Agency for
                                                                           (a)             (b)                (b)
       Location            Employees       Facility? (Y/N)    Costs (Year)          (Year)             (Year)              Total            Maintaining EPA Staff at Location
Office of Air and
Radiation

Florida-Key West                 1                N                         $0                  $0               $0                $0   Office of Air and Radiation placed-based
                                                                                                                                        employee co-located with the National
                                                                                                                                        Oceanic and Atmospheric Administration at
                                                                                                                                        no charge
              Subtotals          1                                          $0                  $0               $0                $0


               TOTALS          152                               $2,070,626         $137,405           $38,159        $2,246,190


Notes
(a) Rent/Lease Costs – FY 2008 projected Costs
(b) Security/Utilities – FY 2007 costs
(c) OECA CID offices typically include special use space including secure storage, conference rooms, and interview rooms
1 Full service leases - utilities are included in the base rent
2 Other costs such as LAN lines, cell phones are included under utilities




                                                                                       29
                                                                                            

                                                                               09-P-0080


                                                                             Appendix A

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Regional Administrators, Regions 1-10
Office of General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Inspector General




                                            30 

